WAIVER

Supreme Court, U.S.
FILEb

SEP 1 3 2019

Supreme Court of the United States

OFFICE OF THE CLERK

No. 19-270
Patricia Rodriguez
(Petitioner)

v.

LPP Mortgage Ltd., LP
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
c

Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature
9/13/2019

Date:

Regina J. McClendon, Counsel for LPP Mortgage, Inc. fka LPP Mortgage Ltd., L.P.

(Type or print) Name

0 Mr.

El Ms.

0 Mrs.

0 Miss

Firm Locke Lord LLP
Address

101 Montgomery Street, Suite 1950

City & State San Francisco, CA
Phone

Zip 94104

415-318-8810

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED,
Cc:

Patricia Rodriguez, Petitioner in Pro Per
Rodriguez Law Group, Inc.
7220 North Rosemead Blvd., Suite 133
San Gabriel, CA 91775

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

RECEIVED
SEP 2 3 2019
OFFICE OF
SUPREME COURTLER
U.S.

